         OFFICE OF INSPECTOR GENERAL 




                                 Catalyst for Improving the Environment


Evaluation Report

       EPA Provided Quality and Timely
       Information Regarding Wastewater
       after Hurricane Katrina
       Report No. 2006-P-00018

       March 28, 2006
Report Contributors:                Carolyn Copper
                                    Dan Engelberg
                                    Renee McGhee-Lenart
                                    Julie Hamann
                                    Gerry Snyder
                                    Susan Barvenik




Abbreviations

DHS            Department of Homeland Security
EPA            Environmental Protection Agency
ESF            Emergency Support Function
FEMA           Federal Emergency Management Agency
NPDES          National Pollutant Discharge and Elimination System
OIG            Office of Inspector General
PCIE           President’s Council on Integrity and Efficiency




Cover photo:     Damaged wastewater treatment facility in St. Bernard Parish in Louisiana.
                 EPA OIG photo.
                       U.S. Environmental Protection Agency                                              2006-P-00018 

                                                                                                        March 28, 2006

                       Office of Inspector General


                       At a Glance

                                                                             Catalyst for Improving the Environment


Why We Did This Review              EPA Provided Quality and Timely Information 

This review was conducted in        Regarding Wastewater after Hurricane Katrina 

conjunction with the
President’s Council on Integrity     What We Found
and Efficiency as part of its
examination of relief efforts       EPA provided quality and timely information regarding wastewater to States,
provided by the Federal             wastewater treatment facilities, and the general public. The damage to the
Government in the aftermath of      wastewater treatment facilities and their collection systems created a potentially
Hurricanes Katrina and Rita.
                                    critical health concern due to the possibility that people living in these
We conducted this review to
assess whether the                  communities would be exposed to raw sewage. Due to the risk of serious illness
Environmental Protection            associated with exposure to raw sewage, decisionmakers needed information to be
Agency (EPA) provided quality       able to evaluate the potential risk of exposure and take steps to protect their
and timely information to the       citizens. EPA did a good job supporting States and local communities in this
States, wastewater treatment        function. The information that EPA provided to the public was augmented by
facilities, and public regarding    significant efforts by other Federal agencies, State agencies, and the communities
wastewater.                         themselves.

Background                          Affected States used the information that EPA provided to help them determine
                                    how best to protect rescue workers and the general public. No sewage-related
On August 29, 2005, Hurricane       illnesses were reported in the affected areas. EPA publicly reported that only
Katrina caused massive damage       about 10 percent of wastewater treatment facilities were inoperable 4 weeks after
in Louisiana, Mississippi, and      the hurricane, most of which were in Louisiana due to flooding in the New
Alabama; affecting                  Orleans area.
approximately 208 wastewater
treatment facilities and causing    We have no recommendations and plan to address lessons learned in subsequent
damage to collection systems        reports.
and raw sewage spills. Human
exposure to raw sewage may
cause illness ranging in severity
from mild gastroenteritis to
cholera.

For further information,
contact our Office of
Congressional and Public
Liaison at (202) 566-2391.

To view the full report,
click on the following link:

www.epa.gov/oig/reports/2006/
20060328-2006-P-00018.pdf
                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                  WASHINGTON, D.C. 20460


                                                                                     OFFICE OF
                                                                                INSPECTOR GENERAL



                                        March 28, 2006

MEMORANDUM

SUBJECT: 	            EPA Provided Quality and Timely Information Regarding Wastewater
                      after Hurricane Katrina
                      Report No. 2006-P-00018

TO:        	          Benjamin H. Grumbles
                      Assistant Administrator for Water

                      James I. Palmer, Jr. 

                      Regional Administrator, EPA Region 4           


                      Richard E. Greene        

                      Regional Administrator, EPA Region 6           


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). The evaluation did not identify any
conditions requiring corrective actions and no recommendations are made. This report
represents the opinion of the OIG and the findings contained in this report do not necessarily
represent the final EPA position.

The Agency did not have comments on our draft report, but provided a response which can be
found in Appendix C. Since our report made no recommendations, no further action is required.

We appreciate the cooperative efforts of EPA, Mississippi, Alabama, and Louisiana officials and
staff as we carried out our work. If you or your staff have any questions regarding this report,
please contact me at (202) 566-0847, or Carolyn Copper, at 202-566-0829.

                                                           Sincerely,



                                                           Bill A. Roderick
                                                           Acting Inspector General
                                      Table of Contents 

At a Glance

   Purpose          .......................................................................................................................    1

   Background ....................................................................................................................             1

   Scope and Methodology................................................................................................                      3

   EPA Provided Quality and Timely Information to Affected States, Wastewater
   Treatment Facilities, and the Public.............................................................................                          4

   Affected States Generally Used Information Provided by EPA .................................                                               5



Appendices
   A National Response Plan: Emergency Support Functions Supported by EPA ...                                                                 7

   B Examples of Wastewater Information Provided by EPA ......................................                                                8

   C EPA Office of Water Comments..............................................................................                               9

   D Distribution ...............................................................................................................             10
Purpose
The President’s Council on Integrity and Efficiency (PCIE), a group of Federal audit and
investigative organizations, is conducting multiple audits, evaluations, and investigations of the
Federal Government’s response to Hurricanes Katrina and Rita. This review was conducted in
conjunction with the PCIE as part of its examination of relief efforts provided by the Federal
Government in the aftermath of Hurricanes Katrina and Rita. As such, a copy of the final report
will be forwarded to the PCIE Homeland Security Working Group, which is coordinating
Inspector General reviews of this important subject. As a member of the PCIE, the
Environmental Protection Agency (EPA) Office of Inspector General (OIG) was tasked with
evaluating several issues related to EPA’s response. One of these evaluations was to assess
EPA’s efforts in providing quality and timely information to the public and decisionmakers
regarding wastewater. Our objectives were to answer the following questions:

   1.	 Did EPA provide quality and timely information to the public and decisionmakers
       relative to the safety of individuals and the environment from wastewater?

   2.	 How did the affected States use information provided by EPA?

Background
Hurricane Katrina hit on August 29, 2005, causing severe damage in Louisiana, Mississippi, and
Alabama. The storm caused significant loss of life, disrupted power and drinking water systems,
and damaged wastewater treatment plants and their collection systems. EPA initially responded,
as did other agencies, by assisting with search and rescue operations and then by addressing
immediate human health threats, such as hazardous waste and drinking water issues. Once
immediate threats to life were addressed, EPA addressed other essential services to the public
such as wastewater treatment.

Wastewater systems have two major components, the collection system and the treatment plant.
The collection system carries wastewater (sewage) from homes and businesses through pipes to
the treatment plant. There, the wastewater is treated to remove or neutralize its potentially
harmful components, and the treated wastewater is then discharged to local waterways or used
for agricultural irrigation. When a part of the system breaks down or gets overwhelmed by
flooding, the untreated wastewater either escapes from the collection system, or the system
operators have to release it untreated to the nearest drainage way. Wastewater treatment
facilities can become flooded and stop treating sewage altogether.

Impact on Wastewater Treatment Facilities

According to EPA, Hurricane Katrina affected, to varying degrees, approximately 208
wastewater treatment facilities: 117 in Mississippi, 78 in Louisiana, and 13 in Alabama. EPA
assisted States in assessing the damage to wastewater treatment facilities during the first few
weeks after the hurricane. By the end of September, EPA reported that about 90 percent of the
facilities were operational. Almost all of the facilities that were still non-operational were in
Louisiana, due to the significant amount of flooding in the New Orleans area. EPA noted in its


                                                 1

news releases that even though facilities were classified as operational, they could still need
repair or reconstruction to return to pre-Hurricane Katrina conditions. Certain facilities remained
non-operational because of severe damage to their collection system and/or treatment plant,
including breaks in pipes and damage to equipment.

Potential for Human Health Exposure

Hurricane Katrina caused damage to wastewater treatment facilities and collection systems
causing wastewater spills and overflows of raw sewage in the affected States. Human exposure
to raw sewage may cause illness ranging in severity from mild gastroenteritis to life-threatening
ailments such as cholera. Potential pathways of exposure to raw sewage include:

    x   Direct contact, such as contact with floodwater or ingestion during recreation;
    x   Drinking water contaminated with raw sewage; and
    x   Consumption of shellfish harvested from areas contaminated by raw sewage.

According to the Louisiana, Mississippi, and Alabama State Epidemiologists, no sewage related
illnesses were reported in the affected areas.

EPA’s Role

As authorized by the Clean Water Act, the National Pollutant Discharge Elimination System
(NPDES) permit program controls water pollution by regulating point sources1 that discharge
pollutants into the waters of the United States, such as wastewater treatment plants. While the
three affected States are authorized to administer the NPDES program, EPA retains general
oversight of State NPDES programs. EPA also retains enforcement authority for some facilities
in Louisiana.

NPDES regulations require permittees to report any noncompliance that may endanger health or
the environment to NPDES authorities within 24 hours of the time the permittee becomes aware
of the circumstances. However, States and wastewater treatment facilities are not required to
notify the public of potential human health concerns regarding instances of noncompliance,
including discharges of untreated wastewater.

In responding to Hurricane Katrina, EPA and other Federal agencies work within the National
Response Plan framework. In order to carry out work on wastewater treatment facilities, the
Federal Emergency Management Agency (FEMA), within the Department of Homeland Security
(DHS), gave EPA mission assignments under the National Response Plan’s Emergency Support
Functions (ESFs) #3 and #10. EPA serves as the coordinator and the Primary Agency for ESF
#10 - Oil and Hazardous Materials Response. Under ESF #10, EPA was assigned to collect and
maintain data on environmental impacts. Under ESF #3 - Public Works and Engineering, EPA
supports the U.S. Army Corps of Engineers. EPA works with water and wastewater facilities to
provide engineering support services including emergency repair of water and wastewater
facilities. EPA also supports other ESFs, which are listed in Appendix A.
1
 Point source discharges are defined as discharges through a discrete conveyance for water such as a pipe or man-
made ditch.


                                                         2

DHS has the public communication assignment under ESF #15. According to EPA, the Agency
provided information to DHS on environmental issues for subsequent communication to State
and local officials and the public. Although DHS has the lead for public communication, EPA
has played a role in communicating directly with the public. EPA’s Deputy Administrator
testified that communication is a critical component of EPA’s Hurricane Katrina response effort.

Scope and Methodology

Our report focused on the wastewater information provided by EPA to the affected States,
selected wastewater treatment facilities, and the public. We reviewed EPA’s responsibilities for
informing the public and decisionmakers under the National Response Plan and Clean Water Act
authorities. To determine what information was provided by EPA, we interviewed EPA
headquarters officials from the Office of Wastewater Management, Office of Emergency
Management, and Office of Public Affairs, as well as officials from Regions 4 and 6. We also
reviewed information provided by EPA and on EPA’s Web sites (Headquarters, Region 4, and
Region 6) such as news releases, public service announcements, and informational flyers.

To determine the quality and timeliness of the information provided by EPA, we interviewed
decisionmakers at the State and local levels only. We interviewed officials from the Louisiana
Department of Environmental Quality, Mississippi Department of Environmental Quality, and
Alabama Department of Environmental Management. We also spoke with the Louisiana,
Mississippi, and Alabama State Epidemiologists to determine if any illnesses were reported
relating to wastewater spills or overflows. We interviewed wastewater facility officials in
Louisiana (New Orleans, St. Bernard Parish, and Ponchatoula) and in Mississippi (Wiggins,
Poplarville, Diamondhead, and Harrison County). The facilities in Louisiana and Mississippi
were selected based on information provided to us by EPA regional offices that indicated these
facilities suffered overflows or severe damage to their plants or collection systems as a result of
the hurricane. Since the wastewater systems we reviewed were not randomly selected, our
observations regarding the quality and timeliness of information obtained by facilities from EPA
is limited to the seven facilities we visited. While we assessed the information EPA made
available to the public, we did not assess the extent to which it was received and understood. We
did not obtain information from other decisionmakers or the public due to time limitations.
This report did not address industrial wastewater or septage issues, including septic tanks and
port-a-johns. While wastewater was discharged into the floodwater, our review did not focus on
floodwater issues in general.

We conducted fieldwork from November 2005 through January 2006. We conducted our review
in accordance with Government Auditing Standards, issued by the Comptroller General of the
United States.




                                                3

EPA Provided Quality and Timely Information to Affected States,
Wastewater Treatment Facilities, and the Public
Based on assessments by State and wastewater treatment facility officials and the information we
reviewed, EPA provided a variety of quality and timely information on wastewater to the States,
wastewater facilities, and the public. Although not concerned with the quality and timeliness of
EPA information on wastewater, the Louisiana Department of Environmental Quality noted that
some information was duplicative.

Information EPA Provided to States and Wastewater Facility Operators

State and municipal wastewater treatment plant officials we interviewed were generally satisfied
with the quality and timeliness of information provided by EPA regarding wastewater. For
example:

   x	 The Mississippi Department of Environmental Quality worked collaboratively with EPA
      on collecting water quality data near the Gulf Coast. One State official commented that
      the information received by EPA was of excellent quality and was available as promptly
      as circumstances allowed.

   x	 Three wastewater treatment facilities (two in Louisiana and one in Mississippi) were
      satisfied with the direct technical/facility support assistance received from EPA. One
      wastewater facility in New Orleans was very pleased with the technical assistance it
      received from EPA staff members, who remained on site for an extended period of time.

The only decisionmakers we interviewed regarding the quality and timeliness of EPA
information regarding wastewater were officials from States and wastewater treatment facilities.
According to EPA, the Agency provided information to other decisionmakers as well, such as:

   x   Briefings to congressional staff; 

   x   Briefings to media representatives;

   x   Meetings with parish and local government officials; and

   x   Other Federal agencies, such as FEMA.


Information EPA Provided to the Public

EPA used a variety of methods to directly communicate information to the public on potential
health concerns regarding exposure to wastewater, including Web sites and radio
announcements. The following are some examples of information EPA provided to the public:

   x	 News releases, which included information addressing potential health concerns and
      other hazards;
   x Press conference materials, speeches, and testimonies addressing EPA’s activities;
   x Public service announcements addressing general health issues in English, Spanish, and
      Vietnamese;



                                                4

    x   Reports, such as Environmental Health Needs & Habitability Assessment Report2;
    x   Water quality data for surface water and floodwater;
    x   Assessments and status of wastewater treatment facilities; and
    x   Answers to frequently asked questions about wastewater systems located on EPA’s Web
        site.

See Appendix B for more details.

At the same time EPA was providing this information, other Federal agencies, States, cities, and
local wastewater treatment facilities also provided wastewater information to the public through
various media including radio, newspapers, television, Web sites, and flyers. For example:

    x	 Immediately after the hurricane, local wastewater treatment facilities provided direct
       information to the public about wastewater discharges and spills. Local officials
       participated in press conferences and posted flyers on community bulletin boards.

    x	 One Louisiana wastewater facility communicated with the public in various ways
       including knocking on doors of houses near areas where wastewater spills occurred and
       by making announcements on the local radio station.

Affected States Generally Used Information Provided by EPA
Affected States generally used the information provided by EPA for various purposes including
decisionmaking. Some of this information was jointly developed with the affected States. For
example:

    x	 Louisiana Department of Environmental Quality officials used water quality data
       collected by EPA to evaluate the potential health risks associated with short-term
       exposure to floodwaters. Louisiana officials used this data to make decisions regarding
       the level of protection required for rescue workers.

    x	 Mississippi Department of Environmental Quality officials also used water quality data
       collected by EPA to make decisions. Mississippi officials used the data to confirm that
       wastewater treatment plants were functioning and that there were no major sources of
       contamination entering the State waters about which the public needed notification.

    x	 The Alabama Department of Environmental Management and Mississippi Department of
       Environmental Quality provided EPA’s information about funding sources for repairing
       wastewater facilities to the appropriate municipal wastewater treatment facilities.




2
 A September 2005 report prepared jointly by EPA and the Centers for Disease Control and Prevention. The report
provided an initial assessment of the overarching environmental health and infrastructure issues faced by New
Orleans to reinhabit the city after Hurricane Katrina.


                                                       5

   x   The Louisiana Department of Environmental Quality issued joint news releases with EPA
       to inform the public of the potential of environmental and health hazards due to exposure
       to wastewater.

While EPA provided quality and timely information, some State and wastewater facility officials
said that they did not need much information from EPA regarding wastewater. Alabama
Department of Environmental Management officials stated that they did not need any
information from EPA because they learned how to handle disasters from their previous
experiences with Hurricane Ivan. Wastewater facility officials in Mississippi and Louisiana told
us that they did not need any information from EPA because (1) they could handle any technical
issues that arose from damage to their plants and collection systems; and (2) they knew their role
was to inform the public of any wastewater spills or overflows, which they did.




                                                6

                                                                                                       Appendix A

          National Response Plan: Emergency Support 

                  Functions Supported by EPA 

EPA and other Federal agencies work within the National Response Plan framework to ensure that work
needed to help recover from disasters, such as hurricanes, is carried out. Specific missions are assigned
through ESFs. EPA supports ESFs as shown below.

    x	 ESF #3 – Public Works and Engineering. EPA’s role may include infrastructure protection
       activities for drinking water and wastewater facilities; assistance in determining suitability of
       drinking water sources; locating disposal sites for debris clearance activities; and assessments,
       technical assistance, and monitoring for contaminated debris management.

    x	 ESF #4 – Firefighting. EPA’s role may include technical assistance for fires involving hazardous
       materials and also assistance in identifying uncontaminated water sources for firefighting.

    x	 ESF #5 – Emergency Management. EPA’s role may include support to the Joint Field Office,3
       and provision of staff liaisons and technical experts.

    x	 ESF #8 – Public Health and Medical. EPA’s role may include technical assistance and
       environmental information for health/medical aspects of hazardous materials situations, technical
       assistance regarding drinking water supplies, and assistance identifying water supplies for critical
       care facilities.

    x	 ESF #10 – Oil and Hazardous Materials Response. For incidents for which EPA is the primary
       agency, EPA coordinates, integrates, and manages the overall Federal effort to detect, identify,
       contain, decontaminate, clean up, or dispose of or minimize discharges of oil or releases of
       hazardous materials; or prevent, mitigate, or minimize the threat of potential releases. EPA’s role
       may include household hazardous waste collection, permitting and monitoring of debris disposal,
       water quality monitoring and protection, air quality sampling and monitoring, and protection of
       natural resources.

    x	 ESF #11 – Agriculture and Natural Resources. EPA’s role may include technical assistance for
       biological and chemical agents regarding environmental monitoring, contaminated crops/animals,
       and food/product decontamination.

    x	 ESF #12 – Energy. EPA’s role may include response to State or local requests for fuel waivers to
       address fuel shortages.

    x	 ESF #13 – Public Safety and Security. EPA’s role may include assistance from specialized
       evidence response teams that can work in a contaminated environment, investigation of criminal
       violations of environmental statutes, and forensic analysis of industrial chemicals.

    x	 ESF #14 – Long-Term Community Recovery. EPA’s role may include technical assistance for
       planning for contaminated debris management and environmental remediation.

    x	 ESF #15 – External Affairs. EPA’s role may include appropriate support as required.
3
  The Joint Field Office is a temporary Federal facility established locally to provide a central point to coordinate
resources in support of State, local, and tribal authorities.


                                                           7

                                                                                     Appendix B

Examples of Wastewater Information Provided by EPA
News Releases    EPA issued about 17 news releases related to wastewater from September to
                 December 2005. Many of the news releases provided a daily update of the response
                 activities. These daily updates emphasized the activities conducted each day and
                 included summary information about the number of wastewater treatment facilities
                 that resumed operation. For example, on September 6, 2005, shortly after the
                 hurricane hit, EPA and the Department of Health and Human Services issued a news
                 release about the dangers of floodwater due to potentially elevated levels of
                 contamination associated with raw sewage and other hazardous substances.
Public Service   EPA recorded public service announcements to provide information to people in the
Announcements    hurricane affected areas. These public service announcements were for use by the
                 media and general public and were provided in English, Spanish, and Vietnamese.
                 The public service announcements addressed general health concerns such as
                 children playing around floodwater and wearing gloves and masks when cleaning
                 homes.
Speeches and     EPA officials provided information to the public through speeches and testimonies.
Testimonies      For example:
                 x The EPA Administrator participated in a press conference to inform the public
                      about EPA’s Hurricane Katrina work.
                 x The EPA Deputy Administrator testified before Congress at the end of
                      September 2005. His testimony addressed the number of impacted wastewater
                      systems and the activities EPA was undertaking to assist them.
                 x The Assistant Administrator for the Office of Water also testified before
                      Congress and spoke about the New Orleans East Bank wastewater treatment
                      facility.
Reports          EPA and the Centers for Disease Control and Prevention developed the
                 Environmental Health Needs & Habitability Assessment report. The report provided
                 an initial assessment of the overarching environmental health and infrastructure
                 issues faced by New Orleans to reinhabit the city.

                 EPA Region 4 and the State of Mississippi conducted ambient water quality
                 monitoring in order to assess the impacts of Hurricane Katrina on the Gulf
                 environment. A report was released on October 28, 2005, documenting the results,
                 which showed few detectable priority pollutant compounds on the impacted bays and
                 rivers.
                 On December 6, 2005, EPA released the Environmental Assessment Summary for
                 Areas of Jefferson, Orleans, St. Bernard, and Plaquemines Parishes Flooded as a
                 Result of Hurricane Katrina. The assessment found that floodwater samples revealed
                 elevated bacteria levels associated with untreated sewage. It also found that
                 floodwaters no longer served as a source of exposure to residents returning to
                 impacted areas.




                                                8

                                                                                      Appendix C

                     EPA Office of Water Comments
                                          March 15, 2006


MEMORANDUM

SUBJECT: 	 Response to Draft Evaluation Report EPA Provided Quality and Timely
           Information Regarding Wastewater after Hurricane Katrina,
           Assignment No. 2006-000260

FROM: 	        Benjamin H. Grumbles
               Assistant Administrator

TO:    	       Bill Roderick
               Acting Inspector General

        Thank you for the opportunity to comment on your Office’s draft report, EPA Provided
Quality and Timely Information Regarding Wastewater after Hurricane Katrina. The hurricanes
which struck the Gulf Coast region last fall were significant, not only in their effects, but in the
response they required from all levels of government. The collaborative efforts of EPA, state,
and local authorities, resulted in the prevention of serious illnesses associated with exposure to
raw sewage as well as the rapid return to operations of the affected facilities. We are proud of
the efforts made by personnel from utilities, state programs, non-governmental organizations and
our own employees in working to restore wastewater treatment services after the storm.

      The Agency is very appreciative of the cooperative approach used by the Inspector
General's (IG) Waste Water Team during the investigation of the Agency’s response to Katrina.

        We appreciate the opportunity to review and provide comment on this draft report. We
have no comments and do not believe that any additional points need to be raised for inclusion in
the final report. We will continue to provide support to the state as needed to address long-term
recovery needs for communities and wastewater utilities in the affected area.

        Thank you again for the opportunity to comment on this final report. If you have further
questions, please contact Jane Moore, Deputy Director of the Office of Wastewater Management
at (202) 564-3944.

cc: 	Richard Green, Regional Administrator, Region VI
     Jimmy Palmer, Regional Administrator, Region IV




                                                 9

                                                                               Appendix D

                                     Distribution
EPA Headquarters

               Office of the Administrator
               Assistant Administrator, Office of Water
               Assistant Administrator, Office of Solid Waste and Emergency Response
               Agency Followup Official (the CFO)
               Agency Followup Coordinator
               Audit Followup Coordinator, Office of Water
               Audit Followup Coordinator, Office of Solid Waste and Emergency Response
               Associate Administrator for Congressional and Intergovernmental Relations
               Associate Administrator for Public Affairs
               General Counsel
               Acting Inspector General


EPA Region 4

               Regional Administrator 

               Director, Water Management Division 

               Deputy Director, Water Management Division           

               Regional Audit Followup Coordinator 



EPA Region 6

               Regional Administrator
               Director, Water Quality Protection Division
               Deputy Director, Water Quality Protection Division
               Regional Audit Followup Coordinator




                                              10

